                                          NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

 Case Number: AI0040029                                                         Page 1 of 1


        We received an allegation against a (former) Division Director (the subject)1 that he
        showed favoritism to the temporary staff (IPAs or rotators) and arbitrarily enforced
        rules only against the permanent staff. We also received an allegation that the
                 C




        subject was staying past his 4-year maximum as a rotator until he could find day­
        care for his children.
        The second allegation was dismissed after we reviewed the subject's IPA grants. At
        the time of the complaint, the subject had time remaining on his last IPA grant and,
        since its expiration, is no longer at NSF. Thus, this allegation has no substance.
        The first allegation was deemed a management issue and referred to the
        Directorate the subject previously managed. Additionally, since we received similar
        complaints about NSF mismanagement involving rotators, we referred the matter.
        to the OIG Office of Audit. Accordingly, this case is closed.




             1   [redacted].



NSF OIG Form 2 (11102)
